<html>
<title> - THE FUTURE OF U.S.-PAKISTAN RELATIONS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                 THE FUTURE OF U.S. PAKISTAN RELATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 16, 2015

                               __________

                           Serial No. 114-136

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ___________
                               
                               
                               
                            U.S. GOVERNMENT PUBLISHING OFFICE
97-997PDF                         WASHINGTON : 2016
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5c3b2c331c3f292f283439302c723f333172">[email&#160;protected]</a>  
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Richard Olson, Special Representative for 
  Afghanistan and Pakistan, U.S. Department of State.............     4

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Richard Olson: Prepared statement..................     7

                                APPENDIX

Hearing notice...................................................    48
Hearing minutes..................................................    49
The Honorable Dana Rohrabacher, a Representative in Congress from 
  the State of California: Material submitted for the record.....    51
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    59
Written responses from the Honorable Richard Olson to questions 
  submitted for the record by:
  The Honorable Michael T. McCaul, a Representative in Congress 
    from the State of Texas......................................    61
  The Honorable Brad Sherman, a Representative in Congress from 
    the State of California......................................    63
  The Honorable David A. Trott, a Representative in Congress from 
    the State of Michigan........................................    64

 
                 THE FUTURE OF U.S.-PAKISTAN RELATIONS

                              ----------                              


                      WEDNESDAY, DECEMBER 16, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock 
a.m.,in room 2172, Rayburn House Office Building, Hon. Edward 
Royce (chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order. There is a 
vote in progress. So my intention here is to begin the hearing, 
and then we will suspend for the duration of the votes and 
allow the other members of the committee to come forward. But 
in this fashion, myself and Congressman Poe can make our 
opening statements, and maybe some of the other members will be 
able to as well.
    This hearing is on the future of U.S.-Pakistan relations. 
The committee has repeatedly urged Pakistan to take meaningful 
action against key Islamist terrorist groups operating within 
its territory. Unfortunately, Pakistan, which is now home to 
the world's fastest growing nuclear weapons program, has 
remained a fount of radical Islamist thought. It was no 
surprise that one of the San Bernardino attackers, Tafsheen 
Malik, studied at a Pakistani school spreading a particularly 
fundamentalist message.
    Looking back, the 9/11 terrorist attacks transformed the 
U.S.-Pakistan relations overnight. After more than a decade 
under sanctions for its nuclear proliferation, Pakistan was to 
be a key ally in combatting Islamist militancy, becoming a 
leading recipient of U.S. aid in the nearly 15 years since.
    But while the U.S. was quick to embrace Pakistan, Pakistan 
has hardly reciprocated. Pakistani Governments have come and 
gone, but its northwestern frontier has remained a terrorist 
haven. With its security services supporting what it considers 
to be good Islamist terrorist groups, these good groups--under 
Pakistan's calculus--destabilize Afghanistan and threaten 
neighboring India while the government simultaneously opposes 
what it considers the bad Islamist groups.
    Today Deobandi schools create an infrastructure of hate. 
Six-hundred Deobandi madrassas, funded with Gulf state money, 
teach intolerant, hate-filled rhetoric that inspires the foot 
soldiers of jihadist terrorism. I have made three trips to 
Islamabad to press this issue. Pakistan must do the work to 
register schools and close those creating new generations of 
radicals, and those are the schools that are being funded with 
Gulf state money, the Deobandi schools, and they need to be 
closed.
    Meanwhile, Pakistan's nuclear arsenal is on a track to be 
the third largest. Its addition of small tactical nuclear 
weapons in recent years is even more troubling. This is a 
country which spends a fifth of its budget on the military, 
from long-range missiles to F-16s, but under 2.5 percent on 
education.
    Through all of the double dealing, U.S. policy has 
essentially stood still. Security assistance--cash and arms--
has continued to flow after the occasional temporary delays. 
Indeed, despite some Department of Defense assistance for 
Pakistan being held because of inadequate efforts against the 
Haqqani Network, the State Department is currently seeking more 
arms for Islamabad.
    Pakistan itself has been devastated by terrorism with 
thousands, over 2,000, of its soldiers killed, thousands and 
thousands of its citizens killed, in terrorist attacks. Today 
we recognize the year anniversary of a horrific attack on a 
school in Peshawar that killed over 100 children. We want a 
strong partnership with the country, but a new policy is long 
overdue. One option, as Ranking Member Engel and I proposed 
earlier this year, would be to target those officials who 
maintain relationships with designated terrorist groups with 
travel and financial sanctions. This would make it clear: The 
U.S. and Pakistan cannot have a true strategic partnership 
until Pakistan security services cuts ties with terrorist 
organizations.
    Recently, senior U.S. officials--including National 
Security Adviser Susan Rice and Deputy Secretary of State Tony 
Blinken--have traveled to Islamabad reportedly to press on the 
Pakistani Government. We look forward to hearing from our 
witness today whether there is reason for hope or if our policy 
is stuck in the same rut.
    And I now will turn to Mr. Ted Poe of Texas and Mr. Dana 
Rohrabacher of California for their opening statements.
    Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman.
    My concern specifically is with our relationship with 
Pakistan. The United States has given Pakistan $30 billion 
since 9/11. I think Pakistan is a Benedict Arnold ally to the 
United States. Even going back to May the 2nd, 2011, when there 
was the raid in Pakistan on Osama bin Laden, we didn't tell the 
Pakistanis we were coming because, frankly, they would snitch 
us off, and Osama bin Laden would have left. And the near 
confrontation that took place between the U.S. and Pakistan 
after the raid--Pakistan scrambled two U.S.-made F-16s and were 
headed to the area where the raid took place and a possible 
confrontation with two U.S.-made jets against American 
helicopters at the raid didn't happen, but it could have 
happened--pilots that presumably were trained the year before 
in 2010 in Tucson, Arizona. And I think we need to be very 
concerned about providing armaments for Pakistan, who seems to 
play all the sides.
    And I would yield back, Mr. Chairman.
    Chairman Royce. Okay.
    And I now yield time to Mr. Dana Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much. When I was elected 28 
years ago, I think most people considered me Pakistan's best 
friend in the House of Representatives. And let me just say 
that over the years, I have been deeply disappointed that those 
people who I considered to be my friends were betraying the 
trust of the United States and were committing acts that were 
only the acts that an enemy would commit, even though we 
continued to have a facade of friendship.
    We have given $30 billion--$30 billion--since 9/11, to 
Pakistan. Yet we realize that since 9/11 that there is ample 
evidence that Pakistan is still deeply involved with various 
terrorist networks, including supporting the Taliban in 
Afghanistan, and radicals who kill Americans. Frankly, our 
relationship with Pakistan has been a disgrace. We have a 
government that gave safe haven to Osama bin Laden, the 
murderer of 3,000 Americans--3,000 Americans slaughtered in 
front of us. I don't think anybody believes that the high level 
people in the Pakistan Government didn't know about that. They 
continue to hold Dr. Afridi, just to rub it in our face. That 
is the type of relationship they have with us. And to their own 
people, they are slaughtering people in the Balochistan and the 
Sindhis and others who are being brutally oppressed by a clique 
in their government, so it is not all Pakistan, but the clique 
that runs that country is treating us like suckers. And they 
should because we are. We are acting foolish, very foolish. 
Giving people money who have continually involved themselves in 
activity that is harmful to the United States of America is not 
going to win their friendship.
    So, Mr. Chairman, I hope that we face facts, and if the 
Pakistani Government wants to be our friend, they can be our 
friend. But they have not been, and they need to change that if 
we are to continue on the relationship that we have. I would 
like to at this point to submit for the record a number of 
articles showing that, again, Pakistan continues to support 
various terrorist operations as well as their relationship with 
China, at the expense of their own people, the Baloch in 
particular, and I submit that for the record at this point.
    Chairman Royce. Without objection.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    I yield back.
    Chairman Royce. We have four votes on the floor, so we will 
recess the hearing and return for witness testimony and 
questions after those four votes.
    And we appreciate the patience of our witness and those in 
attendance, and for now, we stand in recess.
    [Recess.]
    Ms. Ros-Lehtinen [presiding]. I will give him the 
opportunity to make an opening statement, if Dr. Bera would 
like to make one, and then I will introduce the Ambassador. He 
will make his statement, and we will get to the questions and 
answers.
    Dr. Bera is recognized.
    Mr. Bera. Thank you, Madam Chairwoman. I will keep my 
comments short so we can hear from the Ambassador.
    Obviously, as we look at the South Asian region, we look at 
India, we look at Pakistan, the relationship is incredibly 
important, particularly as the changing mission in Afghanistan 
is--the role of Pakistan and India in stabilizing the region is 
incredibly complex and important.
    It is an honor to welcome Ambassador Olson to the job. I 
understand this is your first month on the job, so looking 
forward to working with you and looking forward to furthering 
the relationship between the United States and South Asia and 
stabilizing the region. So thank you.
    Ms. Ros-Lehtinen. Thank you so much, Dr. Bera.
    The chairman would like to express his sorrow for not being 
here, Mr. Ambassador, but he is leading the charge on the House 
floor on four bills from our committee. And that is why he is 
not here, and that is why Mr. Engel is not here either.
    We are pleased to be joined by Ambassador Richard Olson. 
Ambassador Olson is a Special Representative for Afghanistan 
and Pakistan. Immediately prior to this appointment, Ambassador 
Olson served as the U.S. Ambassador to Pakistan, but he has 
served in many capacities all over the world since joining the 
State Department in 1982. Ambassador Olson has been recognized 
several times for his service, including being awarded the 
Presidential Distinguished Service Award.
    Thank you for being with us, Mr. Ambassador.
    Without objection, the witness' full prepared statement 
will be made a part of the record, and members will have 5 
calendar days to submit statements, questions, and extraneous 
materials for the record.
    Ambassador Olson, please summarize your remarks.

       STATEMENT OF THE HONORABLE RICHARD OLSON, SPECIAL 
REPRESENTATIVE FOR AFGHANISTAN AND PAKISTAN, U.S. DEPARTMENT OF 
                             STATE

    Mr. Olson. Madam Chair, members of the committee, thank you 
for the opportunity to appear before you today to discuss the 
current state of the United States' bilateral relationship with 
Pakistan. I am honored to testify in front of you for the first 
time in my capacity as U.S. Special Representative for 
Afghanistan and Pakistan, after having served as your 
Ambassador in Pakistan and previously at our Embassy in Kabul. 
I am humbled and privileged to be in this new role at such a 
critical time for the U.S. relationship with both Pakistan and 
Afghanistan.
    It is clear to me that despite many challenges, Pakistan 
will continue to be an important partner for the United States 
for the foreseeable future, particularly in light of our 
enduring presence in Afghanistan. While we do not always see 
eye to eye on every issue, our relationship with Pakistan is 
vital to the national security of the United States. Most 
importantly, we have the opportunity to continue working with 
Pakistan today on counterterrorism issues along with strategic 
stability, economic growth, and democratic governance to help 
shape a future in which Pakistan is more stable, increasingly 
prosperous, and plays a constructive role in the region.
    Pakistan is a complex place, and it is important not to 
overlook the significant progress made in the last few years. 
In 2013, Pakistan completed its first democratic transition 
from one elected civilian government to another. During the 
past 2 years, we can point to progress, however imperfect, made 
across the economic and security sectors. Prime Minister Nawaz 
Sharif and his team have restored macroeconomic stability to 
Pakistan and improved economic growth. While structural changes 
are still needed to set Pakistan's economy on a path to 
accelerated growth, the reforms to date are a considerable 
accomplishment.
    There has also been substantial changes on the security 
front. Beginning in June 2014, Pakistan initiated large-scale 
counterterrorism operations in the Federally Administered 
Tribal Areas. The subsequent Peshawar Army School attack of 
exactly 1 year ago today was cited by terrorists as retribution 
for Pakistan's operations. It galvanized public opinion in 
Pakistan and prompted Pakistan to increase its counterterrorism 
efforts, not just in tribal areas. Through these operations, 
Pakistan has rooted out many terrorist safe havens and 
recovered more than 160 tons of improvised explosive device 
precursors.
    In addition to taking action on internal threats, 
Pakistan's CT cooperation with the United States on al-Qaeda 
has been critical in decimating the organization. However, 
while Pakistan has made significant sacrifices in its fight 
against terrorism, we believe it can also take more steps to 
put pressure on all terrorist groups in Pakistan that threaten 
regional stability.
    Pakistan is becoming a more constructive actor in the 
region. Last July, Pakistan facilitated a direct meeting 
between Afghan Government and Taliban officials in Murree, 
Pakistan, a milestone in our ongoing efforts to pursue a 
political settlement in Afghanistan. Last week Pakistan hosted 
the Regional Heart of Asia conference, attended by President 
Ghani, which yielded productive discussions about regional 
cooperation to advance the peace process and Afghanistan's 
long-term stability. In addition, India and Pakistan's 
commitment last week to restart a bilateral dialogue is 
particularly important.
    In describing this progress, it is nonetheless clear that 
real challenges remain. While we see progress in decreasing the 
presence of certain terrorists in Pakistan, we continue to 
press Pakistan to target all militant groups that have safe 
haven in Pakistan, particularly the Taliban, including the 
Haqqani Network and Lashkar-e-Tayyiba. We have made it clear to 
the Pakistanis that these organizations threaten Pakistan, the 
region, and the panoply of our mutual national security 
interests, and they must be addressed rigorously.
    We have also asked Pakistan to do all that it can to help 
recover U.S. citizens hostages held on Pakistani territory. We 
continue to press for greater cooperation between Afghanistan 
and Pakistan, both to stabilize the common border region and to 
build the constructive relationship necessary for regional 
stability. It is also critical that Pakistan improve relations 
with its other neighbor, India. Recent high-level talks between 
Indian and Pakistani officials and the announcement of the 
resumption of formal dialogue is welcome. We hope the dialogue 
will be used to reduce tensions and increase ties between the 
two nations.
    Naturally, as Pakistan seeks to combat violent extremism 
and pursue counterinsurgency and counterterrorism objectives, 
we continue to encourage and support Pakistan to strengthen the 
rule of law, civil liberties, respect for human rights, 
accountability, and freedom of speech, which we firmly believe 
are vital to lasting peace and security.
    Our civilian assistance programs help make progress toward 
these economic governance ends and a developing democracy, and 
it is essential they are sustained at current levels.
    With that, I would like to conclude my statement, Madam 
Chair, and I am available for your questions and comments.
    [The prepared statement of Mr. Olson follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 ----------                              

    Ms. Ros-Lehtinen. Thank you so much, Mr. Ambassador.
    Last month, I led a congressional delegation trip to 
Afghanistan and was joined by my friend and colleague from this 
committee, Dr. Yoho. And while obviously this hearing is on the 
future of U.S.-Pakistan relations, we all know that we can't 
really address the future of our bilateral relationship without 
also discussing Afghanistan. When our delegation met with 
President Ghani, he told us that he has reached out his hand to 
Pakistan only to be rebuffed. We all know that in order for 
Pakistan--for Afghanistan to be stable and secure, Pakistan 
will have to play a key role there. Some argue that Pakistan's 
ultimate goal is to use Afghanistan as a sort of strategic 
depth against India and that Pakistan prefers an insecure 
Afghanistan and is using its proxies and ties to insurgent 
groups to exert control in Afghanistan. I wanted to hear your 
perspective on that.
    In fact, in its report to Congress on the progress toward 
security and stability in Afghanistan, the DOD openly stated 
that Pakistan uses these proxy forces to hedge against the loss 
of influence in Afghanistan and to counter India's superior 
military. Do you know if it is true that Ghani is being 
rebuffed by Pakistan? And what is Pakistan's strategic 
objective with regard to Afghanistan?
    And then I wanted to ask about the terrorist safe havens 
inside of Pakistan's borders.
    Thank you, Mr. Ambassador.
    Mr. Olson. Thank you, Madam Chair. With regard to President 
Ghani, as I mentioned in my opening statement, he did travel to 
the Heart of Asia conference last week. And, of course, we have 
applauded President Ghani's outreach to Pakistan, which has 
been one of the notable characteristics of his time in office. 
And we believe that Pakistan has been wanting to reciprocate 
this outreach. Pakistan has taken several steps that are 
important in this regard. The first is that they hosted the 
Murree talks with the Taliban in July between the Government of 
Afghanistan and the Taliban, the first time that the Taliban 
had sat down with the Government of Afghanistan. And at the 
Heart of Asia Conference last week, they reaffirmed, President 
Nawaz Sharif reaffirmed, his support for the sovereignty of 
Afghanistan, the territorial integrity of Afghanistan, the 
legitimacy of its government and its constitution, all of which 
were, I think important points for President Ghani.
    So we will continue to work with Pakistan to encourage them 
to bring the Taliban to the table to resume a peace and 
reconciliation process that is led by the Afghans and owned by 
the Afghans.
    Ms. Ros-Lehtinen. So although the countries have had a 
rocky relationship, you believe that with the new government, 
there will be brighter days ahead, and the level of cooperation 
will be higher and that there will be more trust and 
partnerships evolving from this?
    Mr. Olson. Yes, ma'am. We think there are, of course, many 
challenges in the Afghanistan and Pakistan relationship, but we 
think that the interests of a stable and peaceful Afghanistan 
are best served by having a positive relationship with 
Pakistan, which I think is the strategic vision of both 
President Ghani and Prime Minister Nawaz Sharif.
    Ms. Ros-Lehtinen. Thank you. We hope so. What is Pakistan 
doing to help eliminate the terrorist safe havens inside of its 
borders? We hear so much about that. And I believe that the 
U.S. isn't effectively using our leverage in Afghanistan to 
convince the Pakistanis to do more with us and our Afghan 
partners on the counterterrorism front to work with them rather 
than against the Afghan Government and against its security 
forces.
    We have a pending military package before us on this 
committee, and I believe we need to use that as leverage. Have 
we made progress in getting buy-in from Pakistan on our 
counterterrorism efforts in Afghanistan in eliminating 
terrorist safe havens inside Pakistan? And why should Congress 
approve arms sales to Pakistan when our own Defense Department 
is telling us that Pakistan is openly working against our 
objectives when it comes to Afghanistan, safe havens, and 
counterterrorism?
    Mr. Olson. Thank you, Madam Chair.
    With regard to Pakistan's own counterterrorism operations, 
in June 2014, Pakistan launched Operation Zarb-e-Azb against 
militant strongholds in North Waziristan tribal agency. This is 
something that the United States has wanted for a number of 
years because there were a number of groups located in North 
Waziristan, specifically in Miramshah, that threatened U.S.-
Afghanistan, as well as others.
    During the course of this operation over the course of more 
than a year and a half, the Pakistanis have lost nearly 500 
troops, 488, it was just announced. At the same time, they have 
carried out terrorism operations throughout the settled areas 
of Pakistan, that is to say the non-tribal areas, the rest of 
Pakistan. And despite the terrible incident at the Peshawar 
Army School a year ago, there has been less blow-back than 
might have been expected from the terrorists.
    As I said at the outset in my statement, most of the action 
has been--we think there is more that can be done in terms of 
targeting groups that don't just target Pakistan internally but 
are threats to their neighbors, and we continue to have an 
active dialogue with them. I had a very active dialogue during 
my 3 years in Pakistan on the question of the Haqqanis and also 
the question of Lashkar-e-Tayyiba; although Pakistan has taken 
steps to ban Lashkar-e-Tayyiba.
    Ms. Ros-Lehtinen. Thank you, and I will leave the questions 
to another member.
    We are going to move on to Dr. Bera.
    Mr. Bera. Thank you, Madam Chairwoman.
    As an Indian American, and the only Indian American Member 
of Congress, the stability of the region is incredibly 
important to me and it is one that I have spent a lot of time 
thinking about and very much interconnected when you think 
about India, Pakistan, and Afghanistan. Again, it is not easy.
    On the counterterrorism side, you know, I think post-Mumbai 
in 2008, India demonstrated incredible restraint in its 
approach to Pakistan. Pakistan, as, Ambassador Olson, you 
mentioned, it is the 1-year anniversary of the horrific 
Peshawar school shooting. The fact that I would have expected 
Pakistan to have a much more robust crackdown on the terrorist 
threats, on the LET and the Haqqani Network and others. From 
our perspective, I think from the perspective of the Indians, 
there is almost this side-by-side relationship in Pakistan with 
some of these terrorist networks that, you know, almost 
symbiotic. They live side-by-side. From your perspective, what 
are the steps that Pakistan's Government, its military, needs 
to do to reduce the terrorist threats? Because, again, in some 
ways, it is almost as though they allow these networks to exist 
in Pakistan to destabilize the region or to have this constant 
threat on India.
    Mr. Olson. Thank you, Congressman. I agree with you that 
there continues to be challenges in this area. It is important 
to note that Pakistan has really had a shift over the course of 
the last year and a half. They have suffered enormously from 
terrorism. Over 2,000 soldiers or servicemembers killed, and 
many thousands of individual Pakistani citizens have died as a 
result of terrorist outrages. And the government has a stated 
commitment, articulated both by the Prime Minister and the army 
chief, to go after all terrorists without distinction. And we 
believe there is more that can be done with regard to Lashkar-
e-Tayyiba and the Taliban, including particularly the Haqqani 
Network. And that is a very active element of our dialogue. I 
think it is safe to say that we have almost no meeting with the 
appropriate officials in which those topics are not raised in 
very vigorous, very vigorous, terms.
    I think it is safe to say that the attacks that, that the 
clearing of North Waziristan has resulted in disruption, if not 
elimination, of the Haqqani Network's operational ability. And 
as I mentioned before, they have banned Lashkar-e-Tayyiba, but 
there is still work to be done in this area.
    Mr. Bera. And it does still appear from my perspective that 
there is this coexistence, that they tolerate some of these 
terrorist networks. Looking at kind of projecting out, as India 
undergoes this dramatic growth in its economy and GDP, I do 
worry that Pakistan seems to be stagnating, and as you see the 
ways of life change in these two countries that have a tense 
relationship, it does worry me a little bit that Pakistan 
doesn't seem to be developing its economy, doesn't seem to be 
building those institutions that would create stability. And in 
many ways, the civilian institutions that you would want to 
create a more stable Pakistan, those investments certainly 
aren't occurring.
    I know we have over the years tried to create schools, 
tried to create civilian institutions that would, you know, 
create some stability. From your perspective, Ambassador Olson, 
where should the United States focus? I would say that I am 
critical that much of our focus has been on military sales, 
which I don't think stabilize the region. In fact, I think they 
destabilize the region. If we were to focus on civilian 
institutions, where would you suggest that we place our focus?
    Mr. Olson. Thank you, Congressman.
    First of all, let me just say a quick word since you began 
talking about India, about the recent upturn in relations 
between India and Pakistan, which I think is quite significant. 
As you know, the National Security Advisers met in Bangkok, and 
then Foreign Minister Swaraj attended the Heart of Asia 
conference and extended the hand of friendship to Pakistan, and 
that was very well received. And they have agreed to launch a 
comprehensive dialogue, which will, I think, hopefully improve 
the relationship.
    One of the emphases that we have placed in our assistance 
programs has been to build regional connectivity. So the 
relaunch of a comprehensive dialogue will hopefully, exactly as 
you say, lead to the possibility of increased trade, for 
instance, between India and Pakistan, which we think would be 
beneficial to both sides and particularly help Pakistan. It 
could do more, frankly, in some ways than our assistance 
programs to raise the level of prosperity.
    Ms. Ros-Lehtinen. Thank you, Mr. Ambassador.
    Thank you, Dr. Bera.
    Judge Poe is recognized.
    Mr. Poe. I thank the chair.
    Ambassador, as I mentioned in my opening statement, I want 
to be very specific about what I am concerned about, and that 
is the sale of American fighter jets to Pakistan or the giving 
of American fighter jets to Pakistan through military aid. That 
military aid is then used in the United States to buy those 
jets. And I used the example of Osama bin Laden. The 
Pakistanis, the military, hid him out, in my opinion. The 
United States didn't tell Pakistan we were going after him 
because they would have moved him. We sent helicopters over 
there. The raid was successful. Pakistan scrambles two 
American-made F-16s to intercept the helicopters. Americans 
were able to get away, and there could have been a 
confrontation. How ironic that would have been, American-made 
jets used by Pakistan in a confrontation with American-made 
helicopters in a raid against Osama bin Laden?
    Now we are again in this issue of more military aid to 
Pakistan. I understand that there is $660 million in aid going 
to Pakistan proposed. Some of that is going to be military aid. 
Supposedly the eight fighter jets, F-16s--America makes the 
best fighter jets in the world--is in this package. And it is 
supposed to be used for humanitarian aid. Now, I don't know how 
an F-16 with all of its hardware on there for combat can be 
used for humanitarian aid. If they were buying C-130s--which I 
used to be in a squadron of C-130s back in Texas--I can see 
those being used for humanitarian aid. F-16s, it is not really 
humanitarian aid that they are built for or used for. And are 
we going to be in the same situation with the sale of fighter 
jets for humanitarian aid where we were in the raid with Osama 
bin Laden that these jets will be used for other purposes?
    I don't trust Pakistan. Maybe you do. I don't. We had the 
former Ambassador of Pakistan, Mr. Haqqani, here and testified 
before my subcommittee and said that Pakistan still ends up 
supporting terrorists.
    Do they support them in any way? Does Pakistan support 
terrorist groups in any way? Not just a little, not just a 
much, but do they support them? Or are they free from doing 
that now? Mr. Ambassador?
    Mr. Olson. Thank you, Judge Poe.
    With regard to, Pakistan does have a fleet of F-16s, and 
they have been developing a precision strike capability with 
those F-16s, which they have used to considerable effect in 
North Waziristan and in the tribal areas generally. This is 
within a framework of our security assistance to Pakistan, 
which has six objectives basically centered around 
counterinsurgency and counterterrorism. It is our belief that 
the F-16s have been used very effectively, the precision strike 
capability to take out terrorist targets, including safe havens 
that threaten our forces in Afghanistan.
    Mr. Poe. Reclaiming my time, Mr. Ambassador, my question is 
very specific.
    Mr. Olson. Yes.
    Mr. Poe. Does Pakistan, the military, the government, do 
they still give a safe haven or support directly or indirectly 
to terrorist groups? I mean, they may go after some terrorist 
groups, but do they still give them a safe haven or a pass or 
whatever words you want to use, or are they after all the 
terrorist groups? Do we have any assurance one way or the 
other?
    Mr. Olson. Well, Congressman, with regard to these groups, 
we have had a very active dialogue with them where we have 
pressed them repeatedly to take action against those groups 
that have a presence on Pakistani soil, including the Haqqani 
Network and the Taliban in general and also Lashkar-e-Tayyiba. 
They have--their operations in North Waziristan have had a 
disruptive effect. They, for instance, uncovered arms caches 
that belonged to the Haqqanis and were associated with the 
Haqqani mosque in Miramshah. I have been to Miramshah and seen 
some of the results of these efforts. But we do believe that 
there is more that can be done, and we continue to press them 
very hard on that matter.
    I yield back.
    Ms. Ros-Lehtinen. Thank you, Judge Poe.
    Ms. Kelly of Illinois is recognized.
    Ms. Kelly. When you consider the future of U.S.-Pakistan 
relations, what do you see as the key aims and drivers of our 
Pakistan policy?
    Mr. Olson. Thank you very much, Congresswoman.
    We believe that the best way forward with Pakistan is 
continued engagement, developing Pakistan's civilian economy, 
its ability to be a stable and prosperous country. It is a 
country that faces many challenges, some of which we have 
already identified. It faces challenges from terrorism, from 
violent extremism. It faces a large demographic challenge as 
the youth bulge comes into what should be their most productive 
years. We believe it is in our interests to continue engagement 
with Pakistan so that Pakistan is able to effectively harness 
the youth, having them be educated and prepared for the job 
market, so that Pakistan plays a more constructive role in the 
region as a whole.
    Ms. Kelly. Where do you think our policies have been most 
successful? And in looking back, if there was something you 
could change, what would that be?
    Mr. Olson. Well, I think that our assistance programs over 
the past 5 years, our civilian assistance programs, have made a 
real impact on the life of ordinary Pakistanis. We have, 
through the so-called Kerry-Lugar-Berman authorization, added--
it has been focused in five areas: Energy, economic growth, 
stabilization, health, and education. Some of the 
accomplishments that we can point to include adding 1,750 
megawatts to Pakistan's electricity grid. Electricity is a huge 
problem for ordinary Pakistanis. We have added 1,000 kilometers 
of roads, many of those in the western part of the country 
connecting to Afghanistan so that there is greater regional 
connectivity and farmers can get produce to market. Committed 
over $250 million to returning refugees from the North 
Waziristan operation to their homes. We have extensive exchange 
programs. We bring many Pakistanis to the United States for 
study, which we think will shape their future attitudes to the 
United States. We have the largest, most extensively funded 
Fulbright Program in the world in Pakistan, and we have built 
1,000 schools and funded 15,000 domestic scholarships and 23 
U.S.-Pakistan university partnerships.
    Finally, in health, I would just say that we have launched 
a hospital in Jacobabad and rehabilitated a major OB/GYN center 
at the Jinnah Post Graduate Medical Centre in Karachi, so we 
are addressing and focusing on maternal health care, which is a 
very important issue in terms of the overall health of the 
population.
    Ms. Kelly. Is there something that you think should be 
altered, or what would that be?
    Mr. Olson. Well, I think that it is important for us to 
continue engagement with Pakistan. Despite the challenges of 
the relationship, which are many, we believe that it is in our 
national interests not to allow Pakistan to become disengaged 
from us. And I think we can draw on the lessons of history 
there, especially the period in the 1990s and late 1980s, when 
we did somewhat disengage from the region, and we paid, I 
think, a significant price as a country for that at the 
beginning of the last decade. I think that with all of the 
challenges of the relationship, I think it is most important 
for the U.S. to be engaged and to build a partnership with 
Pakistan.
    Ms. Kelly. Thank you.
    I yield back.
    Ms. Ros-Lehtinen. Thank you, Ms. Kelly.
    And now we will move to Mr. Rohrabacher of California.
    Mr. Rohrabacher. Thank you.
    Well, Mr. Ambassador, you have a mighty tough job. We have 
to respect you for that, and thank you for trying to do your 
best.
    Unfortunately, what I am about to say does not reflect on 
your commitment, but on the feasibility of you succeeding in 
what you are trying to do. The fact is that Pakistan has from 
its very beginning been plagued with corruption and oppression 
by its own government. The brutality and corruption in Pakistan 
was so bad that early on, in 1971, the people of Bangladesh 
couldn't take it anymore. And their uprising was, of course, 
answered not by trying to reform their government but instead 
by brutal suppression, which led to the independence of 
Bangladesh.
    Mr. Ambassador, feel free to correct me if I am wrong, but 
I see a similar type of sentiments and a situation arising with 
the people of Balochistan. There are now these F-16s that the 
judge was talking about. Those F-16s and the military equipment 
that we are providing Pakistan are being used against their own 
people, just like they did against the people over there in 
Bangladesh. So am I mistaken in that we are using weapons that 
are provided--that they are using weapons provided by us 
against their own people in Balochistan and elsewhere?
    Mr. Olson. First of all, thank you, Congressman, very much 
for your support and your kind words. I appreciate it greatly.
    Let me say, with regard to corruption, there have been, as 
part of the national action plan that Pakistan adopted after 
the horrific attack on the Army School, there is an element of 
improving governance and going after corruption, and that has 
been particularly notable lately in some of the operations that 
have taken place in Karachi. There has been an anticorruption 
element to the government's action there.
    Mr. Rohrabacher. You know, Mr. Ambassador, I am going to 
have to tell you that this is about the third time over the 
last 25 years that I have heard this. It is always, ``They are 
now moving forward with the anticorruption drive.'' I will 
just--I won't count on it, but if it happens, I will be very 
happy about that, and the American people will rejoice with the 
people of Pakistan that the crooks finally got displaced up in 
Islamabad.
    The ISI has been--and the judge made this point, and I 
think that your answer suggests what is really going on--the 
ISI is still engaged in terrorism as a strategy for what they 
believe is going to defend their country or give their country 
leverage. And we saw that in attacks on India, and attacks and 
the efforts, of course, supporting the Taliban, et cetera. 
Until that changes, until the people of Balochistan, for 
example, don't have to suffer, where people are being grabbed 
and their bodies are dumped in large numbers, this is a 
travesty. And for the United States to provide weapons to a 
government like Islamabad which then is used against them. But 
even worse, Pakistan and these people who run that country, 
their approach to the United States--the judge was right--if we 
were thwarted in trying to bring to justice Osama bin Laden, it 
would have been because the Pakistanis were using American jets 
to shoot our people down. We calculated on that. That was not 
out of the realm of possibility, and the fact that that is the 
reality of it, and we end up giving them billions of dollars of 
military equipment, no wonder they don't respect us.
    And one last thing, Dr. Afridi--we know now Osama bin Laden 
was given safe haven in that country. The man who slaughtered 
3,000 Americans was given safe haven. The one guy that helped 
us to make sure we could bring back that monster to justice is 
now lingering in a dungeon in Pakistan. This is their answer to 
us. That is a message to the people of the United States. They 
are thumbing their nose at us and taking our money, and they 
are saying: Here is the guy, yeah, we will tell those 
Americans; the guy helped bring Osama bin Laden to justice, we 
are just going to throw him in that dungeon. And that is the 
message to the American people.
    It is time for us to quit taking that and stand up for 
truth, and if we do--and justice--we will be siding with the 
Pakistani people and not their corrupt, brutal government.
    Ms. Ros-Lehtinen. Thank you, Mr. Rohrabacher.
    Mr. Higgins of New York.
    Mr. Higgins. Thank you, Madam Chair.
    Mr. Ambassador, a few minutes ago, you spoke of the hopeful 
signs of the relationship between Pakistan and India. I want to 
focus on the more troubling signs of the relationship with 
India but also with that of the United States. Pakistan--let's 
be truthful about this--plays a double game. They are our 
military partner, but they are the protector and the patron of 
our enemies, and this has been going on for 15 years. Since 
2002, United States aid to Pakistan, economic and military, has 
averaged about $2 billion a year. Pakistan's annual defense 
budget is only about $5 billion a year. So we, the United 
States, finance a major portion of their economic and defense 
military budget. Yet by every measure, terrorism has become 
worse in both Afghanistan and Pakistan. In 2010, the most 
generous U.S. aid package to Pakistan of $4.5 billion--$4.5 
billion--the United States suffered the highest level of 
casualties in Afghanistan, almost 500 soldiers.
    Also, Pakistan is involved in an arms race against what it 
believes is its existential threat with India. In fact, 
according to the Carnegie Endowment for International Peace, 
Pakistan could have 350 nuclear warheads in the next decade, 
becoming the world's third biggest nuclear power, outpacing 
India, France, China, and the United Kingdom. There is no 
positive sign of any improved relations with India because 
Pakistan justifies its nuclear proliferation as a deterrent 
against aggression from the outside. So the United States has 
to get tougher with Pakistan, and we have to call them out on 
this double game that they have been playing, not this year, 
not last year, not 5 years, but for the past 15 years.
    I can appreciate, and you in your capacity must try to, I 
guess, deal with these issues as diplomatically as possible, 
but when you really look at the cold, hard facts, when you 
really look at the cold, hard facts, Pakistan is not an ally to 
the United States. They have facilitated; they have encouraged; 
they have been a protector of the very enemies. So there are 
these two conversations going. There is one when the Americans 
are in the room and the other conversation when we are not in 
the room. And the one that is most detrimental to us, the 
American people, our American soldiers, is the one that is 
going on when we are not in the room.
    I would ask you to comment.
    Mr. Olson. Thank you, Congressman.
    And I want to say that we do share your concern, 
particularly about the development of Pakistan's nuclear 
arsenal. We are concerned both by the pace and the scope of 
Pakistan's nuclear and missile program, including its pursuit 
of short-range nuclear systems. We are concerned that a 
conventional conflict in South Asia could escalate to include 
nuclear use as well as the increased security challenges that 
accompany growing stockpiles. I can tell you, sir, that we have 
had a very active dialogue at the highest levels with the 
Pakistanis in which we have made clear the nature of our very 
specific concerns.
    Mr. Higgins. Mr. Ambassador, with all due respect, we have 
heard this for the past 15 years. You know, here is my 
concern--and I apologize for cutting you off, but I only have a 
minute. If Pakistan falls apart or if Islamic extremists take 
over, it is a nightmare scenario for us. It is a big country, 
about 180 million people. It has a lot of Islamic extremists, 
and it has nuclear weapons. And to have Islamic extremists with 
nuclear weapons is a primary goal, a primary goal of al-Qaeda. 
And it would be a major victory for them and the outgrowth of 
al-Qaeda, the Islamic State, and a major defeat for us, the 
United States.
    I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Higgins.
    And we will turn to Mr. Cook of California.
    Mr. Cook. Thank you, Madam Chairman.
    Many of the questions or comments are things that I was 
going to address, and I just want to follow through on that. I 
think Mr. Higgins made some great comments about that. I think 
we are all concerned because of the size of the nuclear weapons 
and everything else, and there is a part of me that wants to 
say, you know, in all fairness, Pakistan has been a great ally 
of ours, particularly from the military standpoint, and we 
never would have gotten that equipment out of Iraq because 
there was only one way to go, and that was through Pakistan. We 
kind of overlooked that, and, of course, I still think the only 
country that is going to control Afghanistan's destiny is 
Pakistan. Whether you hate them, like them or not, that to me--
and I see you are shaking your head, and you agree with that--
all those things considered, I am going to throw something 
which really, really scares me. And there has been talk that in 
light of the Iranian deal and the nuclear weapons in a Persian 
country, in a Shiite country, in your opinion, is there any 
possibility that Pakistan would not just give the technology 
but actually sell nuclear weapons to the Sunni states with 
money--particularly, and I won't name them, but I think we all 
know who they are--that this proliferation would start on a 
scale that would just change the whole calculus of the region?
    Mr. Olson. Thank you, Congressman, and thank you for 
flagging the role Pakistan had with the JLOCs and other forms 
of support for our operations in Afghanistan. I would say with 
regard to nuclear weapons, first of all, I want to assure you 
that we do agree that nuclear security is a key issue. We have 
confidence in the capabilities of the security forces, the 
Pakistani security forces, to control and secure their nuclear 
weapons. We want to make sure that that continues to be the 
case.
    With regard to proliferation concerns, Pakistan has made an 
effort over the past few years, and we have worked very closely 
with them to tighten export controls and to make sure that they 
are not in a position of proliferating nuclear materials. This 
has involved, of course, a cleanup from a previous situation 
that existed a decade ago. Our assessment is that they have 
made considerable progress in this area.
    Mr. Cook. Thank you.
    Switching gears a little bit, just like everybody on this 
committee, I am afraid that there is one agency in Pakistan 
that I think the vast majority of us are afraid of, and that is 
because of their past history, and that is ISI, and their 
corruption, their agenda, and everything else, and more than 
that, the amount of influence that they have on the Pakistani 
Government in terms of intrigue--I can go on and on and on--but 
just in terms of certain decisions. Can you give me any warm 
and fuzzy feeling about an organization I think most of us are 
very, very nervous about? I am from San Bernardino. I am 
worried about the madrassas again. One of the terrorists came 
from there. And I just--that more than anything else in terms 
of one of the power factors in Pakistan, I am very, very, very 
nervous and cynical about. Thank you.
    Mr. Olson. Yes. Thank you very much, Congressman. Let me 
just mention a couple of things on ISI. First of all, we do 
have a very robust engagement with ISI. I met with the ISI 
chief regularly during my tenure in Pakistan and made the 
points that I described earlier about terrorism directly to 
him. ISI does have a role to play with regard to Afghan 
reconciliation, and we think that the role that Pakistan at 
large played in bringing the Taliban to the table last summer 
was quite important, and they need to do that again, in our 
view, following up on the positive statements out of the Heart 
of Asia conference.
    Mr. Cook. Thank you very much. I know they are going to cut 
me off, but thank you for answering my questions.
    Ms. Ros-Lehtinen. Thank you, Mr. Cook.
    Thank you, Mr. Ambassador.
    Ms. Gabbard of Hawaii.
    Ms. Gabbard. Thank you, Madam Chair.
    Just following up on my colleague Mr. Cook's questions, you 
know, the concern is you are talking about robust engagement 
with ISI. But there has been evidence time and time again of 
their direct and indirect connections with the Haqqani Network. 
In 2011, then Chairman of the Joint Chiefs of Staff, Admiral 
Mike Mullin, called the Haqqani Network a veritable arm of the 
ISI. So as you are having these discussions, you talked a lot 
about how more must be done; discussions are taking place. But 
I am wondering what action, what change in U.S. policy has 
occurred that would actually bring about a consequential shift?
    Mr. Olson. Well, we continue to press at every point for 
action on the Haqqanis. We have done this at the highest levels 
of our Government.
    Ms. Gabbard. Has there been any change in the aid packages 
of the funding we are providing?
    Mr. Olson. Well, as you know, Congresswoman, there was a 
decrement of $300 million from the coalition support funds I 
believe under last year's National Defense Authorization Act. I 
would have to refer you to the Department of Defense for how 
that is being implemented. The $300 million was subject to a 
certification of cooperation from the Haqqanis. So I would have 
to refer you to the Department of Defense on that.
    Ms. Gabbard. Well, I think the concern is that there, to 
say there are serious doubts is an understatement on Pakistan's 
credibility when we talk about fighting these Islamic extremist 
elements, these terrorist elements and even with nuclear 
cooperation. I think one of the greatest concerns, as we look 
at how closely connected the Haqqani Network and others are to 
Pakistan, is the safety of the nuclear weapons that they have 
and preventing misuse. You have just said that you have 
confidence in the Pakistani security forces. But when you have 
these insider threats, when you have the Haqqani Network being 
an arm of the ISI, how can you have confidence that they would 
not in any case gain access to these nuclear weapons or traffic 
them or get them into the wrong hands?
    Mr. Olson. Well, I think that Pakistan has taken a lot of 
steps over the last years to tighten up its control of nuclear 
security. They are well aware of their responsibilities with 
regard to protecting. And I think they have specifically taken 
into account the insider threat as well.
    Ms. Gabbard. Can you speak with some specificity?
    Mr. Olson. Ma'am, honestly, candidly, I would not be able 
to address these issues in this forum. But in another forum, it 
might be possible to do so. Thank you.
    Ms. Gabbard. Can you speak specifically to what Pakistan 
and the government has done to crack down on the Haqqani 
Network or these other terrorist elements that have been and 
are directly linked to them?
    Mr. Olson. Yes, ma'am. The launching of operation of 
Operation Zarb-e-Azb in North Waziristan in June 2014 was 
something that the United States had actually wanted to see for 
quite some time. North Waziristan was where many of these 
militants, including the Haqqani Network, were based in 
Miramshah. Miramshah was completely cleared, including the 
Haqqani Network facilities, and armaments, tunnels, bunkers 
were uncovered, destroyed, and arms caches taken away, 
including 160 tons of precursors for improvised explosive 
devices. And this has had a disruptive effect not only on the 
Pakistani Taliban but also on the Haqqani Network and, by the 
way, al-Qaeda, which probably had some presence there as well. 
And the Pakistanis, including ISI, have cooperated with us in 
taking down al-Qaeda cells, including Adnan Shukrijumah, who 
was wanted for his plotting of attacks on the New York subway, 
and one other American citizen individual who was extradited 
from Pakistan in April of this year. So there has been quite a 
bit of counterterrorism cooperation between ISI and the 
Pakistan Government at large and the United States. And we 
believe that has been to our national interest.
    Ms. Gabbard. Thank you. My time has expired. But I think as 
we look at U.S. policy toward Pakistan, this is something that 
we need to carefully consider. Thank you.
    Mr. Perry [presiding]. The Chair thanks the gentlelady.
    The Chair now recognizes himself.
    Mr. Ambassador, thank you for being here. I had the 
privilege of traveling to Islamabad and then to South 
Waziristan. We couldn't go to North Waziristan because it was 
too dangerous. So we understand and appreciate the difficulty 
of your position and the tenuous circumstances of the 
relationship with Pakistan. That having been said, do we, as a 
Department of State, as the United States Government, have a 
time-related series of metrics to determine success or failure 
of our relationship and the money that the American taxpayer is 
spending regarding that relationship? Can you tell me of any?
    Mr. Olson. Mr. Chair, thank you very much. And let me say 
it is a great pleasure to see you again after seeing you in 
Islamabad. For the assistance programs, that, of course, is the 
responsibility of our colleagues in USAID by and large. And 
they do have an extensive program of metrics and tracking their 
development assistance.
    Mr. Perry. So let me cut to--I don't mean to cut you off. 
But I am trying to get to the terror situation, which is what 
we are really concerned about. We know we spend billions of 
dollars on military assistance, on humanitarian assistance. But 
what we are really getting to is this relationship where 
Pakistan seems to be kind of walking the line somewhere between 
terrorism and somewhere between the support of the United 
States Government. And with all due respect, as long as we 
allow them to continue to walk the line, they are going to 
continue to walk the line because it is in their interest to do 
that.
    And I will give you some of my metrics. But are there any 
metrics regarding terrorism that are time-related, where the 
American people can see they are getting some value out of the 
billions of dollars we spend?
    Mr. Olson. Well, I think that there has been a shift in 
Pakistan. During the time I was there, the 3 years that I was 
there, I definitely saw a shift in the public discourse on the 
terrorism issue. I think there is now a very broad consensus in 
Pakistani politics that it is necessary to go after these 
extremist groups. There was a period I think of doubt about the 
efficacy of going after the Pakistani Taliban. And that ended 
with the operation in North Waziristan in June 2014. There was 
a broad consensus. And it certainly was reinforced by the 
horrific incident of a year ago at the Peshawar Army School.
    Mr. Perry. Mr. Ambassador, what is the cost of the F-16 
deal to the American taxpayer? Do you know what that price is?
    Mr. Olson. Well, Mr. Chair, as a matter of policy, we do 
not discuss prospective arms sales until they have been----
    Mr. Perry. We know it is not cheap, right? Let me just give 
you some of my metrics because my time is short here, and I 
want to make a couple points. In Pakistan, you have al-Qaeda; 
you have the Afghan Taliban; the Haqqani Network; the TTP; and 
the LET operating, which are all terrorist organizations. 
Meanwhile, at the same time, over the past 14, 15 years, the 
American people have spent $30 billion in our relationship with 
Pakistan. Meanwhile, a poll conducted by the Pew Research 
Center last year found only 14 percent--only 14 percent--of 
Pakistanis expressed a positive view of the United States. 
Pakistan seems neither particularly democratic nor tolerant 
regarding their governance or their religious tolerance. And 
then you look at, you know, we talk about this individual, Mr. 
Afridi, who allegedly helped the United States get the number 
one terrorist on our list. And, meanwhile, the backdrop is that 
this terrorist organization, just for instance, the LET has 
been active in Pakistan, as I already stated, Afghanistan, and 
Kashmir since the 1990s, so it is not new. And Pakistan funded 
the group. And the Pakistani Inter-Services Intelligence, the 
ISI, agency helped establish the organization's military 
structure and almost all LET members are Pakistani madrassa 
students or Afghan veterans. In November 2008, 10 LET members 
conducted a coordinated terrorist attack on targets in Mumbai, 
India, killing 160 people, including 4 Americans.
    In December 2008, Pakistan arrested Zaki-ur-Rehman, 
whatever his last name is, the LET leader who organized the 
Mumbai attacks. They arrested him. However, in April 2015, this 
guy was released from jail on $2,300 bond. And there has been 
no trial scheduled for this guy. Meanwhile, the doctor, the 
good Dr. Afridi, remains in a jail. And we are going to sell or 
make some deal with Pakistan for F-16s. And we have neighbors 
that are much better allies. We understand the tenuous 
circumstance. But when are we going to equate our relationship, 
our financial relationship with results about terrorism? Do you 
see that happening any time, quantifiable results, where the 
American people can see the value of this relationship? Sir?
    Mr. Olson. Well, if I could respond to a couple points, Mr. 
Chair. First, on Dr. Afridi, we fully agree with you that he 
has been unjustly imprisoned. And we have communicated this at 
the highest level to----
    Mr. Perry. Why don't we tie it to our actions? Why don't we 
tie his release, why don't we tie the trial of this other 
individual who attacked our ally to the sale of these weapons 
systems and to our aid? Why don't we--who is negotiating these 
deals on our behalf?
    Mr. Olson. Well, Mr. Chair, we believe that, and, again, I 
can't talk about the details of a prospective notification, but 
let me say that we believe that the F-16s that we have already 
sold to Pakistan or provided under security assistance have 
been used to advance our national interests. They have been 
used against terrorists in North Waziristan and in the tribal 
areas. The precision strike capability of the F-16s and our 
programs are focused on counterinsurgency and 
counterterrorism----
    Mr. Perry. Mr. Ambassador, I appreciate it. I understand 
the value of the weapon system and what it can do. We 
appreciate that. We understand that. We are very frustrated 
that for the American people's involvement, we don't see a 
whole lot coming on the other side of the ledger. But that is 
my personal perception.
    With that, my time has expired.
    I would like to recognize the gentleman from California, 
Mr. Lowenthal.
    Mr. Lowenthal. Thank you, Mr. Chair.
    I want to follow up--I think you have probably touched on 
some of these answers already, but I really want to kind of 
deal with my own concerns. Like Congressman Higgins and Cook 
and others, I am troubled about the reports of Pakistan's 
development of what I consider destabilizing tactical nuclear 
weapons at a faster rate than most other countries, if not than 
any other country. I really want to understand, again, a little 
bit more clearly your assessment of Pakistan's progress in 
cooperating with the international community on nuclear 
proliferation concerns. And also the second part of that 
question has to do with some recent media reports suggesting 
that our administration is considering some kind of nuclear 
arrangement with Pakistan. I don't know. I am not really clear; 
what is a nuclear arrangement? And if we are considering it, is 
Pakistan really a trustworthy partner, again, in that? Again, 
like other members, the nuclear proliferation treaty concerns 
are very troubling.
    Mr. Olson. Thank you, Congressman.
    And we share your concern about the scope and pace of 
Pakistan's nuclear program. We do have an active dialogue on 
nonproliferation issues. We have a security----
    Mr. Lowenthal. Has Pakistan increased the rate of 
development, the production of tactical nuclear weapons?
    Mr. Olson. We continue to have concerns about the scope and 
pace, sir. I think that is probably all I can say in this 
particular venue. But I did want to address one other issue 
that you raised. I can assure you, despite some press reports 
to the contrary, that we are not negotiating a 123 agreement, 
so-called 123 agreement, a civil nuclear cooperation agreement, 
with Pakistan.
    Mr. Lowenthal. In any way. Are we setting any preconditions 
or any conditions--this goes back to--about or talking to 
Pakistan about the reduction of its nuclear weapons?
    Mr. Olson. We have had a very candid discussion with the 
Pakistanis about some of the concerns that we have, including 
about shorter range nuclear systems. And Pakistan has been 
prepared to engage with us in those discussions.
    Mr. Lowenthal. And I gather over, since, for the last 60 
years, we have provided over $75 billion in assistance, 
primarily in military and economic assistance. Going back to 
the question asked by the chair, is any of our assistance that 
you know tied to changes in Pakistan's behavior?
    Mr. Olson. There are some very specific metrics and 
conditions that we use in all of our assistance programs, I 
mean, specific to the nature of the program, particularly in 
civilian assistance. With regard to security assistance, what 
we have done is negotiated a framework with the Pakistanis in 
which our security assistance is focused on the 
counterinsurgency and counterterrorism missions. And I think it 
is also particularly worth noting that two additional 
provisions, obviously, all of our assistance is subject to the 
Leahy Amendment, and we have a very rigorous Leahy process. 
This addresses the question of human rights. And in addition to 
that, we have very stringent end-use monitoring requirements on 
the Pakistanis, especially with regard to high-technology 
security assistance. And I can say that we are very strict on 
those. And the results have been satisfactory.
    Mr. Lowenthal. What does that mean, ``the results have been 
satisfactory''?
    Mr. Olson. That we believe that the end-use monitoring 
systems have been effective.
    Mr. Lowenthal. Thank you.
    And I yield back.
    Mr. Perry. The Chairman thanks the gentleman from 
California.
    The Chairman recognizes the gentleman from Florida, Mr. 
Yoho.
    Mr. Yoho. Thank you, Mr. Chairman.
    Mr. Ambassador, I appreciate it. I was fortunate to go over 
to Afghanistan with Chairman Ros-Lehtinen, and we had an 
informative trip. Just to rehash, you know, we have given $30 
billion since 2001 to Pakistan. You know, when you look through 
the list here, there is at least five terrorist networks that 
he know that are operating in the FATA area, along with ISIS is 
in area. And we have heard over and over again it is a no-
man's-land. There is no rule. And in order to get peace in that 
area, there can't be the threat of terrorism. And Pakistan, is 
their goal to get rid of terrorism? I mean, how serious are 
they? Because I am not seeing it.
    Mr. Olson. Sir, thank you. We have agreed for many years 
that the threat from the tribal areas was significant. In that 
regard----
    Mr. Yoho. How serious is Pakistan about bringing this to an 
end? It is like my mom; she was--I told her I wanted to play 
piano, but I wasn't real serious about it. And I never learned 
how to play it. So if you are serious about it, you will do it. 
And if you are not, you are not going to do it. With $30 
billion of the American taxpayers' money going into that area, 
and we rewarded Pakistan by giving them, selling the initial F-
16s as them helping us after 9/11, and then we suspended that 
because we have seen them complicit, working against us in 
Afghanistan. But, yet, we hear they want to have peace in that 
area; they want to have talks and have the concurrent 
resolutions and talks with India. But if you are not willing to 
stand up and stomp out terrorism, you are not real serious 
about it. Just yes or no, am I right or wrong on that?
    Mr. Olson. Well, Congressman, Pakistan has launched 
operations in North Waziristan. They have reasserted their 
sovereign authority over----
    Mr. Yoho. What kind of attacks have they done? I mean, we 
did sorties against ISIS in the summer a year and a half ago, 
but they weren't really meaningful. I mean, we were doing 5 to 
10 maybe a month. If you are serious, you go in and annihilate 
that.
    Mr. Olson. Well, they have completely cleared the city of 
Miramshah, which was the headquarters of, amongst others, the 
Haqqani Network and the Pakistan Taliban, completely cleared 
it. I have been to downtown Miramshah. There is no one there. 
So they cleared the city and cleared all of the networks. They 
have taken 488 casualties, deaths amongst their soldiers just 
in Operation Zarb-e-Azb. So I think their commitment is serious 
to fighting terrorism.
    But the concern that we have, sir--and I have flagged 
this--is we think that more needs to be done against the 
Haqqani Network and some of the groups that threaten Pakistan's 
neighbors, not just the ones that threaten them internally.
    Mr. Yoho. Well, if you look at the recent attack in 
California, Tashfeen Malik studied at an all-women's Islamic 
religious school in Pakistan. So it is still working against 
us. It is still creating terrorism. And then the debate largely 
borders on these F-16s. Efforts by Congress to place 
conditional requirements upon aid to Pakistan due to the 
country's support for terror have consistently been waived by 
administrations which argue that the U.S. assistance is 
essential to build Pakistan's counterterrorism capabilities. 
Let me ask you, in general, what specific contributions have 
Pakistan's F-16s that they have had from us made to U.S. 
counterterrorism objectives in South and Central America? What 
can you say they have done definitively that I can go back to 
the people that I represent and say, ``No, no, this is a good 
thing; we want to keep it because it is going to give us peace 
down the road''? We have said this for 30 years. And we are not 
seeing it. In fact, we are going backwards in this. So what 
benefits have these F-16s done? And I have got a followup 
question if you can----
    Mr. Olson. Yes, sir. I mean, they have used the F-16 for 
precision strikes in the tribal areas. I don't have the 
specific metrics with me here today on the numbers of strikes 
they have conducted. But they are a regular feature of their 
operations. And we believe they have been effective in taking 
out terrorists that are of concern to us as well as to them.
    Mr. Yoho. The administration has no real idea what policies 
Pakistan will be pursuing against militants in the tribal area 
when any new aircraft will be delivered, each of which will 
generally take 3 years to produce and deliver. Would you 
recommend giving them more, selling them more airplanes with 
the results we have gotten so far? And the $30 billion--because 
you read off an impressive list of schools, education, 
Fulbright Scholarships. I am not seeing the return on 
investment here to bring this to an end. And you know where we 
are in America with the American sentiment; they want this to 
end.
    Mr. Olson. Sir, with regard to the F-16s, let me say that 
we believe that they have been a very effective instrument of 
counterinsurgency and counterterrorism. As I said, out of 
respect for congressional prerogatives, we do not discuss 
prospective sales until they have been formally notified.
    Mr. Yoho. But, yet, they protected Osama bin Laden all 
those years. I mean, there is no way they didn't know about 
that. I mean, nobody can convince me of anything different. And 
so, yet, they are effective over here hitting a beehive. They 
are treating a tumor, a malignant, metastatic tumor over here. 
But the main tumor is over here. And we need to go after the 
main root cause of our problems before I can support any sales 
of those. Thank you.
    Chairman Royce [presiding]. Mr. Sherman.
    Mr. Sherman. Thank you. On November 18, Anwar Laghari, the 
brother of the Sindh activist who is the chief advocate here in 
Washington, Munawar Laghari, was killed. There is an ongoing 
investigation. I want to thank you and the State Department for 
the counsel general's focus on this. And it raises the bigger 
issue as to whether there are forces in Pakistan that are 
simply hostile to any region of the country other than Punjab. 
What percentage of the general officers of the military are 
Punjabi? I don't know if you have that available.
    Mr. Olson. I do not have that available, Congressman. And 
we can take that back and see if we have that information.
    I can tell you anecdotally from my personal experience, it 
is a high proportion, but it is not an exclusive proportion.
    Mr. Sherman. Okay. Zero-based budgeting, most people I 
represent feel that the roughly $2 billion we give Pakistan 
could be better spent in the San Fernando Valley. If we are not 
willing to talk about simply a zero figure for aid to Pakistan, 
we have no leverage. The doctor that helped us get Osama bin 
Laden will be rotting in prison. Do we have a plan, as one of 
several options, to go to zero? And what would we expect the 
Pakistani response to be? Is it considered an act of war to 
fail to give another country money?
    Mr. Olson. Sir, we believe that engagement with Pakistan is 
in our national----
    Mr. Sherman. Other countries don't give them money, and 
they still talk. I am not saying we close our Embassy. Are you 
saying the Pakistanis would refuse to talk to us? Does every 
other country have to give them money as like a party gift to 
go have a conversation?
    Mr. Olson. Well, we think that our assistance programs, 
whether we are talking about civilian or military, have 
actually done a lot to improve the conditions in the case of 
civilians and the lives of ordinary Pakistanis. And Pakistan is 
facing an enormous demographic challenge. I mean, it is a 
country of 190 million people. It has a youth bulge. The youth 
are about to come into the most productive years of their 
lives. Either they are going to have jobs or not have jobs. We 
think the----
    Mr. Sherman. Look, I know that we do some good for 
Pakistanis. If we spent that money in India or in Congo, we 
would do an equal amount of good. What is the Pakistani 
response if we simply say ``zero''?
    Mr. Olson. Well, I really can't say what the Government of 
Pakistan would----
    Mr. Sherman. So we are spending $2 billion, much of it 
military. And if we eliminated the military aid, it is clear 
that the Pakistani military does some good. It is also clear 
that the Pakistani military and the ISI do some harm. Have we 
discussed with the Pakistanis that perhaps Congress would 
simply specify zero, particularly if we didn't see some changes 
in policies, starting with the release of the doctor who helped 
us get Osama bin Laden? Have you talked to the Pakistanis that 
there is sentiment in the Congress to go to zero?
    Mr. Olson. I will be happy to convey that sentiment, 
Congressman. And I think that is a point that we can make. The 
administration's position is that we believe that the 
assistance programs that we have are in our national interest. 
They are in our national--it is in our national interest to 
have Pakistan be stable and prosperous, rather than the 
alternative. And it is in our national interest to have 
Pakistan conducting counterinsurgency and counterterrorism 
operations in the western part of the country.
    Mr. Sherman. Do we have assurance that the money we give 
them is not used for oppression and terrorism rather than 
prosperity and counterterrorism? Money is fungible. They may be 
confronting the Haqqani Network or not. Or they may be funding 
the organizations that kill people in Mumbai. How do we know 
which of those two activities our money is funding?
    Mr. Olson. Well, sir, we are very careful about how we 
spend our money and what we spend it on. With regard to the 
military assistance, it is subjected to a very extensive Leahy 
Amendment vetting process. And there is no question that we 
continue to raise these issues that you flagged. The question 
of the Haqqanis, we need to do more on the Haqqanis and on 
Lashkar-e-Tayyiba with the Pakistani Government at every 
occasion.
    Mr. Sherman. Unless they think that you are willing under 
some circumstances to recommend zero to the United States 
Congress, you will not achieve our objectives. And the biggest 
weathervane is the physician that helped us get Osama bin 
Laden. For us to ignore that they were harboring him in one of 
their safest and most military towns and then say we should 
ignore the fact that they have that doctor in prison, it begs 
the question of whether the aid we give them is warranted.
    I yield back.
    Chairman Royce. Thank you. I am going to return to points 
that I made in my opening statement. I was absent for a while. 
We had three bills debated on the House floor that our 
committee put out, including the legislation authored by myself 
and Eliot Engel on targeting Hezbollah, and several other 
cosponsors here, like Mr. Sherman, that we will be voting on 
this afternoon. But if I could return to some of the points 
that I made. I opened with this observation about the Deobandi 
schools in Pakistan. Now, there are 600 of these specifically 
that I am concerned with that over the years we have tried to 
convince the government to shutter, shut them down. They are 
funded primarily by the Gulf states, by individuals, by 
families in the Gulf states who make these charitable 
contributions as they are called. But the problem is that the 
graduates out of these schools basically have a foundation in 
radical ideology. So we have the National Action Plan that has 
been set up by the government. I asked the Congressional 
Research Service about that particular plan. And they say 
nearly 1 year later, there remains limited evidence that the 
government's National Action Plan has brought major policy 
changes. So I wanted to ask you about that, ask you, 
Ambassador, about your dialogue with the government about 
shutting these down so that we shut down the foundation from 
which this radicalization is occurring. Many of those young 
people that come out of that experience will go on to become 
clerics either in Pakistan or elsewhere. And they will continue 
to expand on this radical jihadist ideology that is advanced 
in, that comes out of the Gulf states that is now being taught.
    Mr. Olson. Well, Mr. Chairman, let me say that we share 
your concern about the madrassas. We think it is a serious 
issue. We thought it was significant that it was for the first 
time addressed as an issue nationally in the National Action 
Plan that was put out last year. Our understanding is that the 
government is in the process of putting together a greater 
regulatory framework for the madrassas. It is presently 
mapping----
    Chairman Royce. But this isn't rocket science. We are not 
talking about all madrassas. We are talking about the Deobandi 
schools. As the Dawn editorial, the newspaper Dawn, said: 
Branding all madrassas as incubators of hate and violence is 
wrong. But there is little doubt that there still exists across 
Pakistan religious centers that continue to spew hate. And 
unless that infrastructure of hate is shut down, Pakistan will 
never win its struggle for internal peace. That is the issue. 
We have the list of the 600 schools. I have made three trips, 
as I have indicated, to try to convince the government to shut 
those down. We have had little success in convincing families 
in the Gulf states not to send their money there or convincing 
those governments in the Gulf states not to fund this. This is 
a phenomenon that, frankly, is so frustrating because what we 
see is the failure of the government time and time again to 
address issues that are in that government's own best interest. 
And this, to me, given the knowledge about what goes on in 
those 600 schools, is the most obvious and vexing problem that 
is right in front of us. What do people in the government say 
about that issue?
    Mr. Olson. Well, I have had some discussions about this, 
Mr. Chairman. And I agree that there is a huge challenge with 
the madrassas. The reason in a way that they exist and have 
become popular in Pakistan, if that is the word, is because 
they do provide a free education. And this has to do with the 
fact----
    Chairman Royce. We are talking past each other. I am not 
talking about all the madrassas that provide a free education. 
I am talking about the 600 that you and I know are in this 
particular line of ideological radicalization. And on that 
issue, clearly, given the amount of money that is spent toward 
education in the budget, which is about 2.4 percent that 
actually goes toward education, I understand, I mean, this is 
one of the debates here in terms of the F-16s and other 
military hardware is, wouldn't Pakistan be better served 
addressing this issue of shutting down these 600 schools? And 
if they do it, you know, funding public education there for 
individuals, for families as an alternative for their sons to 
go to those schools in this case instead of the lads going to 
schools where you and I suspect the final outcome is going to 
be like a lot of others that were radicalized in those Deobandi 
schools.
    Mr. Olson. I would agree with that analysis, Mr. Chairman. 
We think that what has to be done is there has to be a further 
reform of the public education system, that the public 
education system is not delivering in Pakistan. And there has 
to be a viable alternative for parents who otherwise have no 
choice but to send their children to schools that are free and, 
indeed, where not only are they free, but the food is provided. 
So there is a real draw factor in all of this. We also think 
that it is important that the Government of Pakistan--and we 
are working with them in this area, in the counter and violence 
extremism area--to try to reform these, the curriculum, so that 
at least in the religiously oriented schools, there are 
marketable skills; there is standardized curricula; and there 
are attempts to address a more modern perspective.
    Chairman Royce. My time has expired.
    But without objection, I am going to ask unanimous consent 
that Representative Sheila Jackson Lee be next in terms of 
asking any questions. She is not on the committee, but she 
wanted to participate today.
    So, without objection, we will go to Representative Sheila 
Jackson Lee from Texas.
    Ms. Jackson Lee. Mr. Chairman, thank you for your kindness. 
It is much appreciated--along with the ranking member, thank 
you so very much.
    I chair the Congressional Pakistan Caucus with my colleague 
and have done so for more than a decade. So thank you very much 
for your presence here. I am going to go pointedly to a 
question dealing with an American doctor of some years back. In 
2014, Dr. Mehdi Ali Qamar, out of Chicago I believe, who came 
on a mission to serve, and, of course, he had a different 
religious background, Ahmadiyya. And I am just wondering did we 
ever solve his killing? And was there any response to that very 
tragic incident? From Chicago, I believe.
    Mr. Olson. Yes, Congresswoman, it is a pleasure to see you 
again.
    Ms. Jackson Lee. Thank you so very much.
    Mr. Olson. I am afraid I do not have any details on that 
particular case. So if I can get back to you with a response, I 
would do so of course.
    Mr. Olson. We continue to have concern about, in general, 
the treatment of religious minorities in Pakistan. And it is a 
key area of our engagement.
    Ms. Jackson Lee. So let me just follow up. You just made a 
key area. I happen to think it is an important issue. And I am 
just wondering how are we pursuing this whole issue of 
religious tolerance?
    Mr. Olson. Well, I think that there have been some 
developments over time in Pakistan that give us a little bit of 
space. We are trying to advance this. One of them certainly was 
the decision by the Supreme Court under Justice Jillani in June 
2014 to extend greater protection to religious minorities. We, 
you know, think that is a positive step that needs to be 
followed up on with the government. We have an ongoing dialogue 
about the rights of religious minorities. And we have a 
particular concern about blasphemy laws, not just in Pakistan 
but everywhere in the world, because of the possibility of 
their being subject to abuse. And that has been the case in 
certain instances in Pakistan. We think it is--within the 
context of having, you know, concerns about the framework, the 
legal framework in which Pakistan conducts antiblasphemy laws--
we think it is positive the case of Asia Bibi has moved to the 
Supreme Court. And we will continue to press the Government of 
Pakistan for proper treatment of religious minorities.
    Ms. Jackson Lee. Let me thank you. And, first of all, let 
me say it is very good to see you. And thank you for your 
service both in Afghanistan and Pakistan. I am probably going 
to focus on Pakistan and then maybe a slight question within 
the timeframe that I have left. I know that you have answered 
the question about Dr. Afridi and his status. When President 
Sharif was here, I questioned him. It seems as if he was trying 
to suggest that there are other issues. Do you have any update? 
You may have given it already in other testimony. But if I can 
get that quickly.
    And let me just follow up with my other question which is 
when the Prime Minister was here, there was certainly an 
impression given--Pakistan--that he was attempting to continue 
to build on democratic principles, focus on economic 
development, education, issues that we would be concerned about 
and, certainly, existence, if you will, with India. And so I am 
wondering what your assessment is. But if you would start with 
the status of the doctor.
    And then, lastly, if you could give me just a little bit 
about Afghanistan, I am concerned in terms of whether or not 
the frontier land or the areas are even embraced by the central 
government and whether or not we actually have a functioning, 
tranquil, growing government in Afghanistan.
    Mr. Olson. Thank you, Congresswoman.
    With regard to Dr. Afridi, we do believe there is no reason 
for his continued detention. We have been assured by the 
Pakistanis that he is in good health. But we continue to press 
his case absolutely at the highest levels of our Government and 
seek his release.
    Ms. Jackson Lee. And you see no other accounts or charges, 
which has been represented to me that there are some other 
charges, you see no reason for him to continue to be 
incarcerated?
    Mr. Olson. Well, we just believe inherently that he should 
not be in a position of detention for helping out in the 
capture or the Osama bin Laden raid. So that has been our 
position from the outset.
    Ms. Jackson Lee. And you continue at the United Nations 
level and other levels to be able to secure his release?
    Mr. Olson. Yes. We continue to work every avenue that is 
open to us and continue to press hard on it.
    Ms. Jackson Lee. And the other questions?
    Mr. Olson. With regard to Afghanistan, the government 
actually does face some challenges. That is not surprising. But 
on the other hand, the government of national unity has held 
together for over a year. The government of national unity, any 
government of national unity, coalition government anywhere, 
there are challenges associated with it. When I was in Kabul 
last week, I got a sense of renewed determination from the 
government to improve its governance, particularly after the 
security challenges that it has faced over the last year. It is 
drawing lessons learned from the experiences of the past year 
and is making more government appointments. And there is a 
particular provincial focus to the government's reform efforts 
right now.
    Ms. Jackson Lee. If the chairman would be kind enough, if 
you could just, under Prime Minister Sharif, who came to the 
United States, do you see the country moving toward more 
democratic principles, economic development? You are in and out 
of the country; do we have a line or a measuring stick that 
moves Pakistan with all of its population, all of its desire 
for education, to a level where you are empowering the many 
young people that are there in the country?
    Mr. Olson. Yes. Congresswoman, thank you.
    There was an important transition in Pakistan, as you know, 
in June 2013 when the first civilian-elected government took 
over from a civilian-elected government, the first successful 
civilian transition in Pakistan's 65-year history at that 
point. And I think that after facing some domestic political 
challenges, the government of Prime Minister Nawaz Sharif has, 
I think, largely settled those political issues. And I think 
the political situation is stable. And the government has 
indeed focused on several key areas of stabilizing the economy. 
Pakistan was--the coffers were quite empty at the time that the 
Nawaz government took over. And there was the potential at that 
point of a balance of payments crisis. Pakistan is now on an 
IMF program. It has been through eight tranches. And that is 
longer than any previous IMF program in history.
    There is still some important structural reforms that need 
to be undertaken, especially in the energy sector. But, on the 
other hand, they have moved to diversify their energy supply. 
They are importing liquefied natural gas with a company from 
Houston helping out in that process, which we were very happy 
to try to promote successfully. And they have also focused on 
infrastructure.
    The Prime Minister has also committed to increasing the 
proportion of spending on education. And in that regard, I 
think it is worth noting that the Prime Minister's daughter, 
Maryam Sharif, signed on with the First Lady, Mrs. Obama, for 
the Let Girls Learn initiative during the Prime Minister's 
visit. And in that regard, Pakistan has expressed its 
seriousness about addressing issues of education, particularly 
for adolescent girls. And we encourage them to continue to 
spend, to increase their funding on education.
    Ms. Jackson Lee. Thank you for your service.
    And thank you very much, Mr. Chairman and Ranking Member, 
for your courtesies. I yield back.
    Chairman Royce. Thank you. We now go to Mr. Eliot Engel of 
New York.
    Mr. Engel. Thank you very much, Mr. Chairman.
    And, Ambassador Olson, it is good to see you. We had a good 
meeting yesterday in my office. I was just debating a bill on 
the House floor and also a New York delegation. So I apologize 
for missing the first part of the hearing. But we discussed 
many of the issues. And I am delighted with your appointment. 
What I am going to do is make a statement and then ask you to 
comment on it. This week, we marked 5 years since the passing 
of Ambassador Holbrooke, who was our first Special 
Representative for Afghanistan and Pakistan. And we still feel 
his loss. He left a remarkable legacy. And his final effort was 
laying the groundwork for resolving the long conflict in 
Afghanistan and Pakistan. And I hope we are able to take 
advantage of that work. As I mentioned before, Ambassador 
Olson, I am confident that with your previous experience in 
both Afghanistan and Pakistan, this important task is in the 
right hands.
    When President Obama took office, I was encouraged by the 
bipartisan commitment to support our military forces, 
diplomats, and development workers in Afghanistan, and to renew 
our partnership with the civilian leadership of Pakistan. This 
focus on Pakistan was reflected in the Kerry-Lugar-Berman bill 
passed by Congress in 2009. But that authorization recently 
expired. And now is a good time to take stock of the status of 
the U.S.-Pakistan relationship. We are used to hearing some bad 
news about Pakistan. But the Pakistani people have achieved 
some noteworthy accomplishments in recent years. Pakistan has 
seen its first peaceful transfer of power from one 
democratically elected government to another. I think this was 
a historic moment for the country.
    Thanks to collaboration with our own USAID, today Pakistan 
has added 1750 megawatts of electricity to its energy grid, 
30,000 new jobs, nearly 1,000 new or refurbished schools, and 
the more than 18,000 newly trained teachers. And let me commend 
our development experts for their hard work in a very 
challenging environment.
    On the security side, we have seen much more modest 
progress. Terrorist groups based in Pakistan continue to pose a 
serious threat to Americans, Pakistanis, and our partners 
throughout South Asia and the world. Moreover, Pakistan has 
provided some extremist groups safe haven and a permissive 
environment that allows extremist ideology to spread. The 
result is terrorist attacks in Afghanistan, India, in the U.K., 
and here in the United States. But the hardest hit have been 
the Pakistani people. Terrorism inside Pakistan has killed more 
than 50,000 people since 2003. That is 50,000 people.
    A year ago today, terrorists affiliated with the Pakistani 
Taliban, also known as TTP, massacred more than 140 teachers 
and students at the Army Public School in Peshawar. Absolutely 
horrific. After years of prodding and far too many lives lost, 
the Pakistani Government finally took military action against 
TTP in North Waziristan. Along with many others, I had high 
hopes for those efforts. I was also hopeful when Pakistan's 
Parliament took a leading role in establishing a National 
Action Plan to comprehensively address terrorism in the 
aftermath of the Peshawar attacks.
    When Pakistan's Government decided it would no longer 
differentiate between good and bad terrorists, that suggested a 
real change in Pakistan's approach, a positive change, to 
addressing terrorism in the country. But, yet again, we have 
seen little evidence that the Government of Pakistan has 
followed through on these commitments. And so some violent 
groups continue to operate in Pakistan with impunity, including 
the Haqqani Network, responsible for the deaths of hundreds of 
Americans in Afghanistan, and Lashkar-e-Tayyiba, also called 
LET, the group responsible for the 2008 Mumbai attacks, which 
also cost American lives. There are some in Pakistan who 
believe they can manage these groups. Yet Lashkar terrorists 
end up fighting our troops in Afghanistan. And Haqqani Network 
terrorists have pledged allegiance to al-Qaeda. It is clear 
that Pakistan is a long way from solving these problems.
    So, Ambassador Olson, as we discuss these issues, I hope we 
can focus on a few key areas. First of all, what is it going to 
take for Pakistan to stop differentiating between good and bad 
terrorists and start treating all terrorists as bad and all 
terrorists as the threat that they are? Does our own policy 
effectively convey to Pakistan that the harm from these 
relationships outweigh any perceived benefit?
    Next, I am curious about how Pakistani acquiescence in or 
support for terrorist groups is affecting its neighbors. Can 
Afghanistan stabilize while Pakistan continues to host groups 
like the Haqqani Network? Can Pakistan and India have a normal 
relationship when Pakistan continues to support LET?
    And, lastly, I am concerned about the messages we are 
sending when we continue to provide Pakistan security 
assistance, despite Pakistan's ongoing relationships with the 
Haqqani Network and LET. We need to be clear-eyed about 
Pakistan's counterterrorism efforts.
    Now, I believe in the U.S.-Pakistan alliance. I believe 
that the United States and Pakistan should be allies and 
continue to work together. But I think the question about 
terrorism is a very important question. And it really has not 
been satisfactorily, in my opinion, met by the Pakistani 
Government. Also, I hope we can soon see a country strategy for 
Pakistan and Afghanistan from USAID so that we can maximize the 
remaining foreign assistance to both countries. In my view, we 
need to include incentives that encourage Pakistan to make much 
needed energy sector and tax reforms. We all want to see a 
peaceful, stable, and prosperous Pakistan that is an integrated 
part of a larger, more connected Central and South Asia. This 
simply cannot happen with the continued instability that exists 
in Pakistan and Afghanistan.
    So I am wondering, Ambassador, if you could answer some of 
these questions I made. If you have already done it, then we 
can do it in writing afterwards. But if you can answer, I would 
be grateful. Thank you.
    And I wish you good luck. And as I said before, I think you 
are the right man for the job.
    Mr. Olson. Well, thank you very much, Ranking Member Engel. 
That means a great deal to me that I enjoy your confidence. And 
thank you for your support. You started by mentioning it is 5 
years since the death of Richard Holbrooke. I was actually in 
his outer office waiting to see him on the day that he 
collapsed. And I think all of us who are working on this 
account greatly, greatly miss him to this day. And I am well 
aware that I am filling very big shoes.
    And thank you for your very comprehensive and balanced 
statement. Let me say with regard particularly to the issue of 
terrorism, we appreciate the statements that Pakistan has made 
at the level of the Prime Minister and the army chief of not 
differentiating between good and bad terrorists. We think there 
is still work to be done in this area. We think that Pakistan 
has moved decisively against any terrorists that threaten 
Pakistan internally but still needs to devote attention to 
those that represent a threat to their neighbors. You asked 
about particularly the effect on Afghanistan. I would just note 
that we had a very constructive week last week with the Heart 
of Asia conference, at which President Ghani attended and which 
Pakistan committed in its public statements to uphold the 
sovereignty, territorial integrity and legitimacy of the 
Afghanistan Government and its constitution, which was 
important for the Afghanistan side. And they committed to 
renewing and reinvigorating a peace process.
    Pakistan did host talks at Murree between the Taliban and 
the Afghanistan Government, the first such talks, last summer 
in July. And I think we are all agreed that it is important to 
get a political settlement process going with a sense of 
urgency. And we look to Pakistan to bring--help to bring the 
Taliban to the table. At the same time, we continue to raise 
our concerns about the threat that specifically the Haqqani 
Network represent to us and our forces and our Embassy and 
civilians in Afghanistan, as well as the Taliban more 
generally.
    And, finally, we certainly have the same view with regard 
to Lashkar-e-Tayyiba and the need to not just ban Lashkar-e-
Tayyiba but to take action with regard to prosecuting the 
perpetrators of Mumbai.
    Mr. Engel. Thank you.
    And I look forward to continuing to working with you.
    Thank you, Mr. Chairman.
    Chairman Royce. And I believe Mr. Higgins had an additional 
question or two.
    Mr. Higgins. Yes. Thank you, Mr. Chairman.
    I just, you know, I just keep going back to the double game 
that is being played by Pakistan. And, you know, you had said 
that Pakistan expressed a seriousness in addressing the 
education needs of its country. Pakistan spends 3 percent of 
its budget on education, 3 percent. It spends 3 percent of its 
budget on infrastructure. According to the World Economic 
Forum, countries that spend less than 15 percent on education, 
health care, and infrastructure are countries that are very 
susceptible to collapse. So when Pakistan says or expresses a 
seriousness in addressing its educational needs, one only needs 
to look at the amount of budgetary resources its addressing for 
that need.
    Additionally, Pakistan, I think, inflates the amount it 
spends on counterterrorism operations so it can receive more 
money, particularly from us. And as has been stated here 
throughout this hearing, some $30 billion over the past 15 
years has been spent, both military and economic development 
aid for Pakistan. According to U.S. military officials, the 
legitimate costs are only about 30 percent. So my question is, 
where is the rest of that money going? And it is very, very 
significant, and I suspect for nefarious purpose.
    And are we winning the hearts and minds of Pakistanis given 
the extraordinary aid that we have provided? Well, I would 
refer you to the Pew Research Center, which says that the 
majority of Pakistanis view the United States as the enemy. The 
majority say that U.S. assistance has a negative or no impact 
at all. And Pakistan is one of the most corrupt countries in 
the world.
    So I think by any measure, when you look at the 
extraordinary aid that we have provided, at the very least, we 
have not used that aid package as a basis from which to force 
very, very reasonable reforms with respect to helping the 
Pakistanis help their own people. Because if you are not making 
a commitment to education, if you are not making a commitment 
to health care, if you are not building the roads and bridges 
of your community, why are we? We spent $87 billion rebuilding 
the roads and bridges of Afghanistan. We spent $73 billion 
rebuilding the roads and bridges of Iraq, roads and bridges 
they blow up to kill our people. So, you know, I think, if 
anything, you know, we look at this exercise today, this 
hearing, as underscoring, I think, the urgency of better 
utilizing the leverage that we have with Pakistan so to ensure 
that not only that money is more wisely spent, but we, you 
know, the benefactors of huge amounts of foreign aid to 
Pakistan aren't viewed by the vast majority of the Pakistani 
people as the enemy and the money that we give them as 
ineffective.
    Mr. Olson. Thank you. Thank you, Congressman.
    And I appreciate the very thoughtful comments that you have 
offered here. And we agree with you on the need for Pakistan to 
be investing more in education, in health, in its own people. I 
think there is really no doubt about that. And we support Prime 
Minister Nawaz' stated commitment to devoting 4 percent to 
education, 4 percent of GDP. And we would like to see that. We 
would like to see that happen.
    I think it does have to be said that Pakistan faces a huge 
number of challenges right now. It faces huge security 
challenges. And we could have a very long discussion about how 
that happened. And I think, you know, there are domestic--there 
are certainly large domestic factors at play. And I think 
Pakistan is attempting to turn that security situation around. 
But that does consume, I think, a significant amount of their 
budget in doing so.
    On the question of hearts and minds and views of Americans, 
it is not--it is not a happy story. And I agree with you. On 
the other hand, it is something that is somewhat improving. The 
numbers have gradually improved on Pakistan's perceptions--
Pakistanis' perceptions of Americans. I can tell you from 
personal experience, I think there is less of an impression now 
amongst the political elite that the United States is playing 
some kind of nefarious role with regard to Pakistani domestic 
politics. In other words, we are perceived as not intervening 
in Pakistani politics. And that is because we haven't. We have 
been very careful not to do that. So I think that this is 
something that is not going to change overnight. But the trends 
are, albeit modest, they are in a positive direction. And I 
think we need to keep working away at that.
    Mr. Higgins. Thank you.
    Chairman Royce. Well, Ambassador, let me--I am going to 
yield time to Mr. Brad Sherman of California for an additional 
question.
    Mr. Sherman. Pakistan is the only schizophrenic nuclear 
power. Winning over the people of Pakistan is one of the most 
important things we can do. Voice of America spends a lot of 
money around the world. I hope that you would be an advocate 
for making sure that we have a robust program not just in Urdu 
but also in the Sindhi and other languages. Please do not be 
fooled by them saying: Well, a lot of people have some working 
knowledge of Urdu. You are in the marketing business. People in 
my town spend billions of dollars advertising in Spanish to 
people who prefer to listen in Spanish. They don't say: Well, 
you know, we are going to test those people and see, what is 
their working knowledge?
    You reach people in the language they want to listen in. 
And the fact that we are talking about $2 billion a year and we 
are not spending $1 million a year to reach people in the 
Sindhi language is something I hope you will do something 
about. I have been trying. I have not been successful. I am 
counting on you.
    I want to second just about everything Mr. Higgins said. I 
was an advocate in my first 5 minutes, or a devil's advocate, 
for a zero-based budget for Pakistan. That is obviously not 
what we are going to do. I do hope that you will confer to the 
Pakistanis, though, that if there ever was a vote on the floor 
of the House to say not one penny can be disbursed until Dr. 
Afridi and his family are safe here, it would pose a danger to 
the U.S. Congress because we would be stampeding to vote yes. 
And that would be a danger to some of our colleagues.
    As to--yes, everybody would stampede; those voting first 
would be stampeded by those trying to be first.
    Focusing on that aid, obviously, schools are important. 
USAID dedicated more than $155 million <greek-l>dollars  deg.to 
building and improving schools in Sindh. A 2014 USAID inspector 
general report found that 3 years in, the program was not 
achieving its goals; it had unrealistic expectations; that no 
schools had been built; that there was little improvement in 
early grade reading.
    That was a report in 2014. Has anything been done to make 
sure that education aid in Sindh is more effectively spent? And 
if you don't have that information, you can respond for the 
record.
    Mr. Olson. Thank you very much, Congressman Sherman.
    Let me say with regard to Sindhi, I hope that you are aware 
that our Consulate General in Karachi has started putting out 
all of its social media work in Sindhi, and it has received a 
very positive reaction. So Facebook----
    Mr. Sherman. That idea may have come from Congress. Go on.
    Mr. Olson. We are happy to implement it, and I will take 
back the message on Voice of America. I don't have specific 
detailed information on the schools in Sindh, but I can tell 
you that I have participated in the inauguration of schools, so 
they are being built. They are going up. But I will have to get 
you a detailed status report.
    Mr. Sherman. I look forward to that. I would also like you 
to explore with USAID the idea that a good chunk of our aid 
should go there in the form of providing free textbooks. That 
would allow us to make sure that the content of those 
textbooks, perhaps not passing a politically correct test in 
the Democratic Club in the San Fernando Valley, would be 
consistent with, if not reflective, of American values.
    Second, every student sees on the front page, ``Provided by 
the people of the United States,'' every day.
    Third, it is very hard to steal a textbook because if the 
United States is providing free textbooks, who are you going to 
sell the textbooks to? Everybody who wants textbooks got them 
for free.
    And, fourth, one of the advantages of the madrassa is they 
got free textbooks; we ought to have free textbooks.
    Finally, what would it take to get Pakistan to be a status 
quo power? That is to say, generally accepting a Kashmir 
situation. Is there any amount of development aid the world 
could provide to the Kashmiri people? Is there any change in 
the level of local autonomy that India could provide? I realize 
everybody wants to get a Nobel Prize for solving the Israeli-
Palestinian question. There might be a prize in it for you. Is 
there anything--not so that Pakistan would formally accept the 
situation, but so that they could calm down, agree to live for 
a decade or so without Kashmir being at the top of their list?
    Chairman Royce. If I might interject here, I am aware that 
Ambassador Olson has to appear on the Senate side, and I am 
aware that----
    Mr. Sherman. That is not important.
    Chairman Royce. Regardless of our feelings on this, he 
might interpret it differently, and so maybe that is a longer 
discussion that we might have either in writing or sit down 
with him.
    Mr. Sherman. And we were supposed to meet in my office. 
They closed every school in my district. I look forward to 
meeting with you.
    Chairman Royce. Thank you.
    And just in closing, I did want to bring up the remarks 
that Mr. Engel made about your predecessor, Ambassador Olson, 
in your job, Ambassador Richard Holbrooke. He was a personal 
friend to myself and Eliot Engel, and I know certainly from the 
day that he began engaging with this committee, I remember the 
Dayton Peace Accords and the work he did on Bosnia and Kosovo 
with Eliot Engel and others, with those of us here. We counted 
him as someone who had very wise counsel on a lot of issues. We 
miss him. I can't help but feel when I reflect upon your 
predecessor that the stress of the job may have had something 
to do with his heart giving out.
    We wish you, Ambassador, well in your responsibilities 
here, and we appreciate your time and patience today. I know 
that you are on your way to the Senate, so I will just say what 
you have heard are some deep concerns from both sides of the 
aisle here today about the direction, this issue about getting 
more money into public education in Pakistan. It is clear to us 
that this has got to be a priority. Members are frustrated.
    You have a difficult job, but you have the full backing 
from us to weigh in forcefully with the responsibilities you 
have in your position.
    So, with that said, we thank you again, and we stand 
adjourned.
    [Whereupon, at 12:58 p.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------  
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
